FILE COPY

RE: Case No. 20-0949
COA #: 14-19-00167-CV
STYLE: MEIGS v. BERGMAN

DATE: 1/15/2021
TC#: 2017-73032

______ Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

DISTRICT CLERK HARRIS COUNTY
HARRIS COUNTY CIVIL COURTHOUSE
P.O. BOX 4651
HOUSTON, TX 77210
* DELIVERED VIA E-MAIL *

APPENDIX B
Supreme Court of Texas
Case # 20-0949
Motion Denied for Rehearing via Mail
SUMMARY ORDER via MAIL
RE: Case No. 20-0949

DATE: 4/9/2021

TC#: 2017-73032
COA#: 14-19-00167-CV
STYLE: MEIGS v. BERGMAN
Today the Supreme Court of Texas denied the motion
for rehearing of the above-referenced petition for
review.
DISTRICT CLERK HARRIS COUNTY HARRIS
COUNTY CIVIL COURTHOUSE
P.O. BOX 4651 HOUSTON, TX 77210
* DELIVERED VIA E-MAIL *

- 15 -

APPENDIX C
Fourteenth Court of Appeals of Texas
Meigs v. Bergman and Bergman ADR
NO. 14-19-00167-CV
SUMMARY ORDER
October 13, 2020
JUDGMENT
The Fourteenth Court of Appeals
Wendy Meigs, Appellant
V.
Trey Bergman and Bergman ADR Group, Appellees
NO. 14-19-00167-CV
This cause, an appeal from the judgment in favor of
appellees, Trey Bergman and Bergman ADR Group,
signed, December 4, 2018, was heard on the appellate
record. We have inspected the record and find no error
in the judgment. We order the judgment of the court
below AFFIRMED.
We order appellant, Wendy Meigs, to pay all costs
incurred in this appeal. We further order this decision
certified below for observance.
Judgment Rendered October 13, 2020.
Panel Consists of Justices Christopher, Wise, and
Zimmerer. Opinion delivered by Justice Zimmerer
- 16-

APPENDIX D
270th District Court of Harris County, Texas
Cause No. 2017-73029
Meigs v Bergman and Bergman ADR Group
SUMMARY ORDER
Defendants Trey Bergman and Bergman ADR Group's
Traditional and No-Evidence Motion for Summary
Judgment. The Court, having reviewed the pleadings,
response, and argument of counsel, is of the opinion that
Defendants Trey Bergman and Bergman ADR Group's
Traditional and No-Evidence Motion for Summary
Judgment should be granted in its entirety. It is
therefore,
ORDERED, ADJUDGED AND DECREED that
Defendants Trey Bergman and Bergman ADR Group's
Traditional and No-Evidence Motion for Summary
Judgment is GRANTED in its entirety. It is further,
ORDERED that Plaintiff Wendy Meigs talce nothing on
her claims and causes of action asserted against
Defendants Trey Bergman and Bergman ADR Group
and that all Plaintiffs causes of action are hereby
DISMISSED with prejudice.
Signed by /s/Judge Brent Gamble
Date: 12/4/2018
For the signature of the Clerk of the Court, use
this format:
FOR THE COURT:
s/ Chris Daniel. District Clerk
Chris Daniel
Clerk of Court
- 17-

